APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 20-2605
BARBARA TULLY, KATHARINE BLACK, MARC
BLACK, DAVID CARTER, REBECCA GAINES,
ELIZABETH KMIECIAK, CHAQUITTA
MCCLEARY, DAVID SLIVKA, DOMINIC TUMMINELLO, and INDIANA VOTE BY MAIL, INC.,
individually and on behalf of all others similarly
situated,
Plaintiffs-Appellants,
v.
PAUL OKESON, S. ANTHONY LONG, SUZANNAH
WILSON OVERHOLT, ZACHARY E. KLUTZ, and
CONNIE LAWSON, in their official capacities,
Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of Indiana, Indianapolis
Division.
No. 20-cv-01271 – James Patrick Hanlon, Judge.
Argued: September 30, 2020
Decided: October 6, 2020

2a
Before RIPPLE, KANNE, and SCUDDER, Circuit
Judges.
KANNE, Circuit Judge:
Relying on the unprecedented challenges posed by
the COVID-19 pandemic, Plaintiffs seek a preliminary injunction requiring Indiana to permit unlimited
absentee voting in the upcoming general election. To
attain this goal, they challenge Indiana’s absenteevoting regime on two grounds. First, Plaintiffs assert
that Indiana’s extension of absentee ballots to elderly
Hoosiers violates the Twenty-Sixth Amendment by
abridging younger Hoosiers’ right to vote. Second,
Plaintiffs contend that requiring some voters, such as
themselves, to cast ballots in person during the ongoing COVID-19 pandemic infringes on their fundamental right to vote and thus violates the Fourteenth
Amendment’s Equal Protection Clause.
These claims hinge on one question: what is “the
right to vote”? In McDonald v. Board of Election Commissioners of Chicago, the Supreme Court told us that
the fundamental right to vote does not extend to a
claimed right to cast an absentee ballot by mail. 394
U.S. 802, 807 (1969). And unless a state’s actions
make it harder to cast a ballot at all, the right to vote
is not at stake. Id.
Considering that definition, Indiana’s absenteevoting regime does not affect Plaintiffs’ right to vote
and does not violate the Constitution. In the upcoming
election, all Hoosiers, including Plaintiffs, can vote on
election day, or during the early-voting period, at polling places all over Indiana. The court recognizes the
difficulties that might accompany in-person voting
during this time. But Indiana’s absentee-voting laws

3a
are not to blame. It’s the pandemic, not the State, that
might affect Plaintiffs’ determination to cast a ballot.
Two other principles guide our decision in this
case. First, the Constitution explicitly grants states
the authority to prescribe the manner of holding federal elections. U.S. Const. art. I, § 4. Recognizing that
authority, our court has acknowledged that balancing
the interests of discouraging fraud and mitigating
elections-related issues with encouraging voter turnout is a judgment reserved to the legislature. See Griffin v. Roupas, 385 F.3d 1128, 1131 (7th Cir. 2004).
Second, the Supreme Court’s Purcell principle counsels federal courts to exercise caution and restraint
before upending state election regulations on the eve
of an election. See Purcell v. Gonzalez, 549 U.S. 1, 4
(2006). Given that voting is already underway in Indiana, we have crossed Purcell’s warning threshold and
are wary of turning the State in a new direction at this
late stage.
We therefore affirm the district court’s decision
denying Plaintiffs’ request for a preliminary injunction.
I.

Background

Indiana voters who fall into any of thirteen statutorily enumerated categories can vote by mail. Ind.
Code § 3-11-10-24 (2020). One of those categories encompasses voters aged sixty-five and older. Id. § 3-1110-24(a)(5). Others encompass, for example, disabled
or homebound voters, voters who lack transportation,
and voters who expect to be absent from the county on
election day. Id. § 3-11-10-24(a).
For purposes of the primary election held in June
of this year, the Indiana Election Commission responded to the difficulties of voting during the

4a
COVID-19 pandemic by extending these absentee-voting privileges to all registered and qualified Indiana
voters. For the general election coming up this November, however, the IEC did not renew its order. Instead, Indiana has by now taken steps to alleviate
COVID-19’s burden on voters by, for example, allowing Hoosiers in all counties to vote during a twentyeight-day period before the election (see id. § 3-11-1026(f)) and by implementing safety guidelines and procuring protective equipment for election day. This
preparation also came as Indiana progressed to “Stage
5” of its public health and reopening plan late last
month.1
Plaintiffs include nine Indiana voters who do not
expect to qualify for an absentee ballot in the fast-approaching general election.2 Asserting claims under
the Twenty-Sixth Amendment and the Equal Protection Clause, they moved for a preliminary injunction
requiring Indiana to implement “no-excuse absentee
voting” in the general election. The district court denied Plaintiffs’ motion. Plaintiffs now appeal that decision.
II. Analysis
“A preliminary injunction is an extraordinary
remedy.” Whitaker v. Kenosha Unified Sch. Dist. No. 1

1 See Shari Rudavsky, Indiana to Move to Stage 5 of Coronavirus
Reopening Saturday While Staying Masked, Indianapolis Star
(Sept.
23,
2020),
https://www.indystar.com/story/news/health/2020/09/23/indiana-movestage-5coronavirus-reopening/3506866001/.

Although there is a corporate plaintiff—Indiana Vote by Mail,
Inc.—for simplicity, we refer only to the individual plaintiffs
throughout the opinion.
2

5a
Bd. of Educ., 858 F.3d 1034, 1044 (7th Cir. 2017) (citing Girl Scouts of Manitou Council, Inc. v. Girl Scouts
of U.S., Inc., 549 F.3d 1079, 1085 (7th Cir. 2008)). “We
review the grant of a preliminary injunction for the
abuse of discretion, reviewing legal issues de novo,
while factual findings are reviewed for clear error.” Id.
(internal citations omitted) (citing Jones v. Markiewicz-Qualkinbush, 842 F.3d 1053, 1057 (7th Cir.
2016); Fed. Trade Comm’n v. Advoc. Health Care Network, 841 F.3d 460, 467 (7th Cir. 2016)).
To merit such relief, a movant “must make a
threshold showing that: (1) absent preliminary injunctive relief, he will suffer irreparable harm in the interim prior to a final resolution; (2) there is no adequate remedy at law; and (3) he has a reasonable likelihood of success on the merits.” Turnell v. CentiMark
Corp., 796 F.3d 656, 662 (7th Cir. 2015). Then, if the
movant makes this threshold showing, the court proceeds to consider the balance of harms between the
parties and the effect of granting or denying a preliminary injunction on the “public interest.” Id. This case
turns on the threshold inquiry and, more particularly,
whether Plaintiffs have shown that they have a reasonable likelihood of success on the merits.
A movant’s showing of likelihood of success on the
merits must be “strong.” Ill. Republican Party v. Pritzker, No. 20-2175, 2020 WL 5246656, at *2 (7th Cir.
Sept. 3, 2020). “A ‘strong’ showing ... does not mean
proof by a preponderance ... . But it normally includes
a demonstration of how the applicant proposes to
prove the key elements of its case.” Id. Plaintiffs have
not made this “strong” showing as to either of their
claims because “the right to vote” does not include
Plaintiffs’ “claimed right to receive absentee ballots.”

6a
McDonald v. Bd. of Election Comm’rs of Chi. 394 U.S.
802, 807 (1969).
A. Plaintiffs’ Twenty-Sixth Amendment Claim
The Twenty-Sixth Amendment provides, “The
right of citizens of the United States, who are eighteen
years of age or older, to vote shall not be denied or
abridged by the United States or by any State on account of age.” Plaintiffs argue that Indiana’s law permitting Hoosiers who are sixty-five and older to vote
absentee violates the Twenty-Sixth Amendment because it does not provide the same privilege to younger
voters. The success of this claim depends on whether
Indiana’s age-based absentee-voting law abridges “the
right ... to vote” protected by the Twenty Sixth Amendment or merely affects a privilege to vote by mail.
The Supreme Court answered this question in
McDonald. 394 U.S. at 807; see also Tex. Democratic
Party v. Abbott, No. 20-50407, 2020 WL 5422917, at
*10 (5th Cir. Sept. 10, 2020) (“Understanding what
the right to vote meant at the time the Twenty-Sixth
Amendment was ratified in 1971 is certainly assisted
by the 1969 McDonald decision.”). There, pretrial detainees in Illinois argued that a state law granting absentee ballots to some individuals, but not to pretrial
detainees, violated the Equal Protection Clause.
McDonald, 394 U.S. at 803. The Court rejected this
argument because the detainees did not put forth evidence showing that the challenged law “impact[ed
their] ability to exercise the fundamental right to
vote” or that it “absolutely prohibited” them from voting. Id. at 807, 808 n.7. Instead, the law “ma[de] voting more available to some groups.” Id. at 807. Therefore, it was “not the right to vote that [was] at stake ...
but a claimed right to receive absentee ballots.” Id. In
short, the Court held that the fundamental right to

7a
vote means the ability to cast a ballot, but not the
right to do so in a voter’s preferred manner, such as
by mail.3
In this case, we too are reviewing an absentee-voting statute that “make[s] voting more available to
some groups”— namely, voters over sixty-five. Id.; see
also Luft v. Evers, 963 F.3d 665, 672 (7th Cir. 2020)
(noting that Wisconsin’s absentee-voting laws “make
voting easier”). And even as applied right now, during
a pandemic, the statute does not “impact[ Plaintiffs’]
ability to exercise the fundamental right to vote” or
“absolutely prohibit[ Plaintiffs] from voting”; only the
The Court has reiterated this holding several times. See Kramer
v. Union Free Sch. Dist. No. 15, 395 U.S. 621, 626 n.6 (1969) (“In
McDonald ... we were reviewing a statute which made casting a
ballot easier for some ... . [A]t issue was not a claimed right to
vote but a claimed right to an absentee ballot.”); see also Hill v.
Stone, 421 U.S. 289, 300 n.9 (1975) (summarizing McDonald as
addressing “whether pretrial detainees in Illinois jails were unconstitutionally denied absentee ballots” when “there was nothing in the record to indicate that the challenged Illinois statute
had any impact on the appellants’ exercise of their right to vote”);
Goosby v. Osser, 409 U.S. 512, 521 (1973) (holding that, unlike
the claim in McDonald, the plaintiffs’ claim implicated the right
to vote because it alleged that a “Pennsylvania statutory scheme
absolutely prohibit[ed] the[ plaintiffs] from voting”); Bullock v.
Carter, 405 U.S. 134, 143 (1972) (“Of course, not every limitation
or incidental burden on the exercise of voting rights is subject to
a stringent standard of review.” (citing McDonald, 394 U.S. at
802)). And other federal courts of appeals have continued to
acknowledge McDonald’s authority. See, e.g., Abbott, 2020 WL
5422917, at *12 (relying on McDonald to hold that “the right to
vote in 1971 did not include a right to vote by mail” and that “[i]nperson voting was the rule, absentee voting the exception”); Mays
v. LaRose, 951 F.3d 775, 792 (6th Cir. 2020) (“[T]here is no constitutional right to an absentee ballot.” (citing McDonald, 394
U.S. at 807–09)).
3

8a
pandemic is potentially guilty of those charges.
McDonald, 394 U.S. at 807, 808 n.7.
If Indiana’s law granting absentee ballots to elderly voters changed or even disappeared tomorrow,
all Hoosiers could vote in person this November, or
during Indiana’s twenty-eight-day early voting window, just the same. Consequently, “at issue [i]s not a
claimed right to vote” but a “claimed right to an absentee ballot.” Id. at 807. And for that reason, Plaintiffs’ claim under the Twenty-Sixth Amendment,
which only protects the right to vote, is unlikely to succeed. Abbott, 2020 WL 5422917, at *15 (“[A]n election
law abridges a person’s right to vote for the purposes
of the Twenty-Sixth Amendment only if it makes voting more difficult.”).
Plaintiffs retort that this conclusion is wrong because hypothetical laws similarly restricting the ability of African Americans or women or the poor to vote
by mail would violate the Fifteenth, Nineteenth, and
Twenty-Fourth Amendments, respectively.4 Plaintiffs
are correct that such laws could be subject to heightened scrutiny for “operat[ing] to the peculiar disadvantage of a suspect class.” Mass. Bd. of Ret. v. Murgia, 427 U.S. 307, 312 (1976). But this scrutiny would
come from the Fourteenth Amendment’s Equal Protection Clause. Am. Party of Tex. v. White, 415 U.S.
767, 795 (1974) (“[P]ermitting absentee voting by
some classes of voters and denying the privilege to
U.S. Const. amend. XV (“The right of citizens of the United
States to vote shall not be denied or abridged ... on account of
race ... .”); id. amend. XIX (“The right of citizens of the United
States to vote shall not be denied or abridged ... on account of
sex.”); id. amend. XXIV (“The right of citizens of the United
States to vote ... shall not be denied or abridged ... by reason of
failure to pay any poll tax or other tax.”).
4

9a
other classes ... is an arbitrary discrimination violative of the Equal Protection Clause.” (emphasis
added)); McDonald, 394 U.S. at 807 (“[A] careful examination on our part is especially warranted [under
the Equal Protection Clause] where lines are drawn
on the basis of wealth or race ... .”). It would not come
from the Fifteenth, Nineteenth, or Twenty-Fourth
Amendments because Plaintiffs’ hypothetical laws do
not implicate the right to vote.5 Plaintiffs’ rebuttal
thus bears no weight.
B. Plaintiffs’ Equal Protection Claim
The Fourteenth Amendment’s Equal Protection
Clause prohibits states from impermissibly interfering with individuals’ fundamental rights such as the
right to vote. Murgia, 427 U.S. at 312 & n.3. Plaintiffs
argue that Indiana’s absentee-voting regime requiring some Indiana voters, themselves included, to cast
ballots in person during the COVID-19 pandemic hinders their ability to vote and therefore violates the
Equal Protection Clause. We disagree. Because Indiana’s absentee-voting scheme does not impact Plaintiffs’ fundamental right to vote, McDonald commands
that rational-basis review applies. And under that lenient test, Plaintiffs’ equal protection claim is not
likely to succeed. Further, whether we employ McDonald’s rational-basis test or the Anderson/Burdick balancing-of-interests test, we land on the same conclusion.

Plaintiffs have not argued that Indiana’s age-based absenteevoting law violates the Equal Protection Clause by “operat[ing]
to the peculiar disadvantage of a suspect class.” Murgia, 427 U.S.
at 312. So we do not reach that issue.
5

10a
1. Rational-basis review applies.
The parties disagree on the appropriate test to use
in scrutinizing Indiana’s absentee-voting regime under the Equal Protection Clause. Plaintiffs argue that
we should apply the balancing test set forth by the Supreme Court in Anderson v. Celebrezze, 460 U.S. 780
(1983), and Burdick v. Takushi, 504 U.S. 428 (1992),
under which we weigh the burden that a state regulation imposes on the right to vote against the state’s
interest in enacting the regulation. But Indiana argues that we should apply the rational-basis test used
by the Supreme Court in McDonald, 394 U.S. at 807–
08.
The Supreme Court has never overturned or disparaged any of these cases. In fact, Burdick itself cites
McDonald favorably. Burdick, 504 U.S. at 434. So,
bearing in mind that the Supreme Court shies from
overturning its precedents sub silentio, Shalala v. Ill.
Council on Long Term Care, Inc., 529 U.S. 1, 18
(2000), we must harmonize the McDonald and Anderson/Burdick frameworks.
As explained above, McDonald dealt with Illinois
pretrial detainees who brought an equal protection
challenge against a law that did not affect their fundamental “right to vote” but only affected “a claimed
right to receive absentee ballots.” 394 U.S. at 807. The
law was thus subject to mere rational-basis review. Id.
Anderson and Burdick, however, involved very different situations in which the right to vote protected by
the Fourteenth Amendment was at stake. Anderson,
460 U.S. at 786; Burdick, 504 U.S. at 439. The Court
therefore employed a balancing test in which it
weighed “‘the character and magnitude of the asserted
injury to the rights protected by the First and Four-

11a
teenth Amendments that the plaintiff seeks to vindicate’ against ‘the precise interests put forward by the
State as justifications for the burden imposed by its
rule.’” Burdick, 504 U.S. at 434 (quoting Anderson,
460 U.S. at 789).
We have stated that the Anderson/Burdick “test
applies to all First and Fourteenth Amendment challenges to state election laws.” Acevedo v. Cook Cnty.
Officers Electoral Bd., 925 F.3d 944, 948 (7th Cir.
2019). But that assertion, which comes from a case
that had nothing to do with absentee voting, did not,
and cannot, override the Supreme Court’s holding in
McDonald that rational-basis scrutiny applies to election laws that do not impact the right to vote—that is,
the right to cast a ballot in person. See Bullock v.
Carter, 405 U.S. 134, 143 (1972) (“Of course, not every
limitation or incidental burden on the exercise of voting rights is subject to a stringent standard of review.”
(citing McDonald, 394 U.S. at 802 (1969)). Accordingly, all election laws affecting the right to vote are
subject to the Anderson/Burdick test, but election laws
that do not curtail the right to vote need only pass rational-basis scrutiny.6

We also note that Anderson and Burdick themselves compel
this conclusion. The balancing test set forth by those cases requires courts to consider “the character and magnitude of the asserted injury to the rights protected by the First and Fourteenth
Amendments that the plaintiff seeks to vindicate.” Burdick, 504
U.S. at 434 (emphasis added) (quoting Anderson, 460 U.S. at
789). As has been exhaustively explained, the ability to vote by
mail is not a “right[] protected by the First and Fourteenth
Amendments.” Id. So, in cases like McDonald, where only the
claimed right to vote by mail is at issue, the Anderson/Burdick
test, by its own terms, cannot apply.
6

12a
Given this harmonization, McDonald’s rationalbasis test applies in this case to determine the validity
of Indiana’s absentee-voting scheme under the Equal
Protection Clause. Just as Indiana’s law providing absentee ballots to elderly Hoosiers does not affect Plaintiffs’ right to vote, Indiana’s whole absentee-voting
scheme does not affect Plaintiffs’ right to vote. Indiana’s absentee-voting laws “ma[ke] casting a ballot
easier for” voters who fall into any of thirteen qualifying categories. Kramer v. Union Free Sch. Dist. No. 15,
395 U.S. 621, 626 n.6 (1969) (citing McDonald, 394
U.S. at 807). And they do not make it harder for anyone to cast a ballot—it’s COVID-19 that might affect
election-day plans. For those reasons, rational-basis
review controls.
2. Indiana’s absentee-voting laws pass
rational-basis review.
Under rational-basis review, a law must “bear
some rational relationship to a legitimate state end.”
McDonald, 394 U.S. at 809. This poses a low hurdle
because rational-basis review “is not a license for
courts to judge the wisdom, fairness, or logic of legislative choices.” Johnson v. Daley, 339 F.3d 582, 587
(7th Cir. 2003) (quoting Heller v. Doe, 509 U.S. 312,
319 (1993)). For example, in McDonald, the Court
held that the Illinois law failing to provide absentee
ballots to pretrial detainees passed rational-basis review because, although Illinois could make voting easier “by extending absentee voting privileges to [the detainees, i]ts failure to do so ... hardly seems arbitrary,
particularly in view of the many other classes of Illinois citizens not covered by the absentee provisions,
for whom voting may be extremely difficult, if not
practically impossible.” 394 U.S. at 809–10.

13a
Indiana’s absentee-voting scheme likewise survives rational-basis scrutiny. In wielding its “broad
authority to regulate the conduct of elections, including federal ones,” Indiana has an undeniably legitimate interest in preventing voter fraud and “other
abuses” that are “facilitated by absentee voting.” Griffin v. Roupas, 385 F.3d 1128, 1130–31 (7th Cir. 2004).
And the Indiana General Assembly’s decision to open
up absentee voting only to those Hoosiers who are
most likely to benefit from it bears a clearly rational
relationship to that interest in curbing the dangers of
unfettered absentee voting. Id. So although Indiana
could make voting even easier “by extending absentee-voting privileges to” all, “[i]ts failure to do so ...
hardly seems arbitrary.” McDonald, 394 U.S. at 810.
3. Indiana’s voting scheme is equally
sound even under the Anderson/Burdick test.
Even if we were to analyze Plaintiffs’ equal protection challenge using the Anderson/Burdick balancing approach, we would arrive at the same result. The
Supreme Court in Burdick acknowledged the fundamental nature of the right to vote but recognized that
it does not follow “that the right to vote in any manner
... [is] absolute.” Burdick, 504 U.S. at 433. State laws
regulating the mechanics of elections will “invariably
impose some burden upon individual voters,” so courts
should employ a balancing analysis for constitutional
challenges to such laws. Id. at 433–34. Specifically,
courts “weigh ‘the character and magnitude of the asserted injury’” to voting rights “against ‘the precise interests put forward by the State as justifications for
the burden imposed by its rule.’” Id. at 434 (quoting
Anderson, 460 U.S. at 789). Anderson further instructs that, in undertaking this balancing inquiry,

14a
we “must not only determine the legitimacy and
strength of each of those interests” but also “consider
the extent to which those interests make it necessary
to burden the plaintiff’s rights.” 460 U.S. at 789.
Plaintiffs assert that their inability to vote by mail
under Indiana’s absentee-voting laws force each voter
to make a choice between personal health and safety
and exercising the right to vote. There is no question
that Indiana’s eligibility requirements for absentee
voting inconvenience some voters who would prefer,
but do not qualify, to vote by mail. But we cannot assess Indiana’s absentee voting provisions in isolation
and instead must consider Indiana’s electoral scheme
as a whole. See Burdick, 504 U.S. at 434–37; Luft, 963
F.3d at 671–72, 675.
Indiana allows absentee voting by mail for all
Hoosiers that qualify in one of thirteen categories,
which include voters who are disabled, will be confined due to illness or injury, will be confined caring
for another person, lack transportation to the polls,
are age sixty-five or older, expect to be absent from the
county on election day, and more. Ind. Code § 3-11-1024. Indiana also allows for early in-person voting for
twenty-eight days leading up to the election, one of the
longer early-voting periods across all states. Id. § 311-10-26(f).
What is more, the Indiana Governor’s Stay-AtHome Executive Order has expired and Indiana has
progressed to “Stage 5” of its reopening plan, alleviating some of Plaintiffs’ proposed justifications for universal voting by mail. Taken together, the State’s voting scheme has a modest impact on Hoosiers in selecting their preferred manner of voting, but we cannot
say it severely restricts the right to vote altogether.

15a
Turning to the state-interest side of the balancing
scale, Indiana has identified several factors that
guided its decision to allow some, but not all, Hoosiers
to vote absentee: discouraging fraud, ensuring that
the maximum number of ballots are deemed valid,
managing administrative capacity to process ballots,
and permitting voters to receive timely information
about candidates up to election day.
On balance, Indiana’s legitimate interests in ensuring safe and accurate voting procedures are sufficient to outweigh any limited burden on Hoosiers’
right to vote as they choose caused by the State’s restricted absentee voting scheme. We are mindful that
Indiana’s decision to accommodate some voters by
permitting absentee voting “is an indulgence—not a
constitutional imperative that falls short of what is required.” Crawford v. Marion Cnty. Election Bd., 553
U.S. 181, 209 (2008) (Scalia, J., concurring). And we
reiterate that “[o]ne less-convenient feature does not
an unconstitutional system make.” Luft, 963 F.3d at
675.
Finally, we are well aware that the most severe
public-health crisis of the past century currently ravages our nation and the world. But that reality does
not undermine our conclusion—it reinforces it. “[T]he
balance between discouraging fraud and other
abuses,” on the one hand, and “encouraging turnout”
and voter safety, on the other, “is quintessentially a
legislative judgment.” Griffin, 385 F.3d at 1131. This
court is ill equipped to second guess, let alone override, the rational policy judgments of Indiana’s elected
officials “on the eve of an election.” Republican Nat’l
Comm. v. Democratic Nat’l Comm., 140 S. Ct. 1205,
1207 (2020). Indeed, “[g]iven the imminence of the

16a
election,” our intervention now would only risk exacerbating “voter confusion,” and we should therefore
“allow the election to proceed without an injunction.”
Purcell v. Gonzalez, 549 U.S. 1, 4–6 (2006). This holds
true even—and especially—in midst of a pandemic
when “[l]ocal officials are working tirelessly to ‘shap[e]
their response to changing facts on the ground,’ knowing that the appropriate response is ‘subject to reasonable disagreement.’” Tex. Democratic Party v. Abbott,
961 F.3d 389, 393–94 (5th Cir. 2020) (alteration in
original) (quoting S. Bay United Pentecostal Church v.
Newsom, 140 S. Ct. 1613, 1614 (2020) (Roberts, C.J.,
concurring)).
Indiana has exercised its judgment and taken
steps to lighten COVID-19’s burden on voters by, for
example, allowing Hoosiers to vote early and implementing safety guidelines and procuring protective
equipment for election day. Tully v. Okeson, No. 1:20cv-01271-JPH-DLP, 2020 WL 4926439, at *6 (S.D.
Ind. Aug. 21, 2020). We cannot upend this legislative
work even if we thought we could do better. Griffin,
385 F.3d at 1132.
III. Conclusion
We are mindful of the difficulties that so many
Hoosiers, and other Americans, face as a result of
COVID-19. We also fully grasp the gravity of our national elections and the sincere desires of Plaintiffs
and other Hoosiers to participate in one of the most
central aspects of our republic—choosing our representatives. But it is precisely because of the gravity of
this situation that we should not, and will not, “judicially legislat[e] so radical a reform [as unlimited absentee voting] in the name of the Constitution” where

17a
the State has infringed on no one’s right to vote. Griffin, 385 F.3d at 1130. We therefore AFFIRM the decision of the district court.

18a
RIPPLE, Circuit Judge, concurring. I join the
judgment of the court affirming the district court’s denial of a preliminary injunction.
The Indiana statutory scheme for voting by absentee ballot is a generous one. It sets forth thirteen categories of individuals who can vote absentee. Ind.
Code § 3-11-10-24 (2020). It also gives the Indiana
Election Commission the authority to let any “person
who is otherwise qualified to vote in person to vote by
absentee ballot” in an emergency. Id. § 3-11-4-1(c).
One of the categories listed in the statute is the elderly, id. § 3-11-10-24(a)(5), defined in another section
of the Code as those over sixty-five years old. Id. § 35-2-16.5. The remaining sections deal with other categories of individuals who may be impeded in getting
to the polls. Unlike in this year’s primary elections,
the Commission has refrained from extending permission, under its emergency powers, to all otherwise
qualified voters to vote by absentee ballot in the general election. Notably, it still has the authority to consider individual cases. Id. § 3-11-4-1(c).
In my view, the plaintiffs have made a weak case
that the Commission’s action constitutes an abridgement of the right to vote on the basis of age and therefore violates the Twenty-Sixth Amendment. The statute granting the mail ballot privilege employs age
only in a tangential way. It simply defines the term
“elderly” as a person who has lived sixty-five years.
This definitional shorthand is a common-sense tool; it
relieves the Commission of the insurmountable task
of adjudicating, on an individual basis, which of its
older citizens would be deterred in coming to the polls
on a November day because of the physical and social
conditions that invariably afflict senior citizens. A No-

19a
vember day in Indiana, at least in the northern regions of the State, can pose a significant obstacle to
leaving one’s home.
By granting a general absentee voting privilege to
its senior citizens, the State removed for its senior citizens impediments not experienced by most other
Hoosiers who desire to vote. By defining the elderly by
age, the State may well have created a category that
is both over- and under-inclusive. No party in this case
suggests, however, that this line drawing constitutes
an invidious irrebuttable presumption. To the extent
that the category is over-inclusive, it simply implements the legislature’s solicitude that everyone who
experiences the barriers associated with old age can
vote. Any under inclusion is the unhappy byproduct of
the need to make a reasonable judgment based on the
Country’s general experience in dealing with the problems of the aged. The legislature simply employed a
reasonable methodology to identify those who, in its
judgment, needed a special accommodation to get to
the polls. This is hardly an invidious classification
based on age.
My colleagues do not concern themselves with the
nature of the State’s exemption for the aged because,
in their view, McDonald v. Board of Election Commissioners of Chicago, 394 U.S. 802 (1969), establishes a
rigid rule that the fundamental right to vote does not
include a right to cast an absentee ballot. Any age distinction with respect to absentee ballot privileges
therefore does not impact the right to vote and therefore does not implicate the Twenty-Sixth Amendment.
McDonald antedates the ratification of this Amendment, however, and it may well be that the day will
come when the general rule articulated in McDonald
will have to yield to the Twenty-Sixth Amendment

20a
when the values protected by that Amendment are
clearly at stake. As I already have explained, I do not
believe that those values are directly implicated here.
We live, however, in an age when many consider manipulation of the electoral process to be acceptable
public conduct. We well may see someday a more direct attempt to manipulate the electoral process by altering the absentee ballot program to disfavor a specific age group. On that issue, we ought to keep our
powder dry.7
The plaintiffs’ Fourteenth Amendment argument,
while somewhat stronger than their Twenty-Sixth
Amendment submission, hardly constitutes a significant chance of success on the merits. Here, the intermediate scrutiny of the Anderson-Burdick rule seems
appropriate to ensure that manipulation of the absentee ballot privilege does not result in disenfranchisement. Yet, invocation of this intermediate scrutiny
test does not appreciably assist the plaintiffs here. On
this record, they simply cannot show any realistic

The same may very well be said for my colleagues’ discussion of
the Fifteenth, Nineteenth, and Twenty-Fourth Amendments. My
colleagues write that only the Fourteenth Amendment offers a
vehicle to scrutinize line drawing on the basis of race or sex or
wealth, with respect to absentee voting—the Fifteenth, Nineteenth, and Twenty-Fourth Amendments, according to my colleagues, have no role to play on the issue. This case, of course,
does not present us with an opportunity to consider how the Fifteenth, Nineteenth, or Twenty-Fourth Amendments might apply
to laws regarding absentee voting, or how the historical context
underlying those Amendments might differentiate each Amendment’s scope. Though my colleagues’ discussion of the Fifteenth,
Nineteenth, and Twenty-Fourth Amendments is surely dicta, I
believe it is prudent to keep our powder dry on those issues as
well.
7

21a
jeopardy of losing the right to vote because of the Commission’s decision not to extend the absentee ballot
privilege. The record shows that the Commission assessed the State’s capacity to conduct a “no excuses”
absentee ballot election and compared it to its ability
to conduct an in-person election with enhanced safeguards for the health of the voters. The Commission
considered the significant difficulty that it had experienced in conducting the primary election under a “no
excuses” absentee ballot system. Although the primaries required the State to handle a significantly
smaller number of ballots than the number anticipated in the general election, the State’s capacity to
tally the votes was significantly wanting.8 There is no
indication in the record that, in the short period since
the primary election, the State has had the opportunity to build the infrastructure necessary to handle
a significantly greater number of ballots in the general election. On the other hand, the record does
demonstrate that the State has taken significant alternate steps to assuage the danger still attendant on
waiting in an enclosed area to vote.9 Whether the
State made a wise decision we cannot say. That it
made its decision only after a careful weighing of the
competing considerations is evident. See Burdick v.
Takushi, 504 U.S. 428, 438–39 (1992). Further judicial scrutiny of that decision is not appropriate. Accordingly, I join the judgment of the court.

8

R.53, Exs. 1–4.

9

R.53, Ex. 4.

22a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 20-2605
BARBARA TULLY, KATHARINE BLACK, MARC
BLACK, DAVID CARTER, REBECCA GAINES,
ELIZABETH KMIECIAK, CHAQUITTA
MCCLEARY, DAVID SLIVKA, DOMINIC TUMMINELLO, and INDIANA VOTE BY MAIL, INC.,
individually and on behalf of those similarly
situated,
Plaintiffs-Appellants,
v.
PAUL OKESON, S. ANTHONY LONG, SUZANNAH
WILSON OVERHOLT, ZACHARY E. KLUTZ, and
CONNIE LAWSON, in their official capacities,
Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of Indiana, Indianapolis
Division.
No. 1:20-cv-01271-JPH-DLP – James Patrick
Hanlon, Judge.
October 6, 2020
BEFORE RIPPLE, KANNE, and SCUDDER, Circuit Judges.

23a

FINAL JUDGMENT
The judgment of the District Court is AFFIRMED, with costs, in accordance with the decision
of this court entered on this date.

24a
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION

BARBARA TULLY, KATHARINE BLACK, MARC
BLACK, DAVID CARTER, REBECCA GAINES,
ELIZABETH KMIECIAK, CHAQUITTA
MCCLEARY, DAVID SLIVKA, DOMINIC TUMMINELLO, and INDIANA VOTE BY MAIL, INC.,
individually and on behalf of all others similarly
situated,
Plaintiffs,
v.
PAUL OKESON, S. ANTHONY LONG, SUZANNAH
WILSON OVERHOLT, ZACHARY E. KLUTZ in
their official capacity as members of the Indiana
Election Commission, CONNIE LAWSON, in her official capacity as the Indiana Secretary of State,
Defendants.
DISABILITY RIGHTS EDUCATION and DEFENSE
FUND, INC.,
Amicus.
No. 1:20-cv-01271-JPH-DLP
Signed: August 21, 2020
ORDER DENYING PLAINTIFFS’ MOTION FOR
A PRELIMINARY INJUNCTION

25a
Plaintiffs ask the Court to enter a preliminary injunction that would require the State of Indiana to allow all Indiana voters to vote by mail in the November
3, 2020 general election. They argue that Indiana’s absentee voting law—which allows only some Hoosiers
to vote by mail—unconstitutionally burdens their
right to vote. Defendants—the Indiana Secretary of
State and members of the Indiana Election Commission—respond that because Plaintiffs may vote in person, they are not likely to be able to show that the absentee voting law is unconstitutional and are not entitled to a preliminary injunction. The question before
the Court is not whether it would be wise for Indiana
to allow everyone to vote by mail; that’s a policy
choice. Rather, the legal issue is whether Plaintiffs
are likely to be able to show that the Constitution requires Indiana to give all voters the right to vote by
mail in the upcoming general election. Plaintiffs have
not made this showing so their motion for preliminary
injunction is DENIED. Dkt. [13].
I.

Facts and Background

The Court recites the undisputed facts for purposes of this preliminary injunction motion. See Univ.
of Texas v. Camenisch, 451 U.S. 390, 395, (1981) (procedures are “less formal” and the evidence is “less
complete” than at trial because the “purpose of a preliminary injunction is merely to preserve the relative
positions of the parties until a trial on the merits can
be held”).
COVID-19 needs little introduction—it is a respiratory disease that “readily spread[s] from person to
person,” Dkt. 13-13 at 9 ¶ 18, and has caused a pandemic. While COVID-19 has infected many Hoosiers,
many more remain vulnerable. Id. at 6 ¶ 11. One way
they can minimize the risk of infection is by spending

26a
time “in the best ventilated, least contaminated environment where the fewest number of people are generating the fewest virus particles.” Id. at 4 ¶ 8.
In response to COVID-19, the Election Commission—which is charged with administering Indiana’s
election laws—endorsed a broad reading of Indiana’s
vote by mail statute for Indiana’s primary election.
See Indiana Code § 3-11-10-24(a). That statute provides that “a voter who satisfies any of the following
[13 categories] is entitled to vote by mail”:
(1) The voter has a specific, reasonable expectation of being absent from the county on election
day during the entire twelve (12) hours that the
polls are open.
(2) The voter will be absent from the precinct of
the voter’s residence on election day because of
service as:
(A) a precinct election officer under IC 3-6-6;
(B) a watcher under IC 3-6-8, IC 3-6-9, or IC 36-10;
(C) a challenger or pollbook holder under IC 36-7; or
(D) a person employed by an election board to
administer the election for which the absentee
ballot is requested.
(3) The voter will be confined on election day to
the voter’s residence, to a health care facility, or
to a hospital because of an illness or injury during
the entire twelve (12) hours that the polls are
open.
(4) The voter is a voter with disabilities.

27a
(5) The voter is an elderly voter.1
(6) The voter is prevented from voting due to the
voter’s care of an individual confined to a private
residence because of illness or injury during the
entire twelve (12) hours that the polls are open.
(7) The voter is scheduled to work at the person’s
regular place of employment during the entire
twelve (12) hours that the polls are open.
(8) The voter is eligible to vote under IC 3-10-11
or IC 3-10-12.
(9) The voter is prevented from voting due to observance of a religious discipline or religious holiday during the entire twelve (12) hours that the
polls are open.
(10) The voter is an address confidentiality program participant (as defined in IC 5-26.5-1-6).
(11) The voter is a member of the military or public safety officer.
(12) The voter is a serious sex offender (as defined
in IC 35-42-4-14(a)).
(13) The voter is prevented from voting due to the
unavailability of transportation to the polls.
For Indiana’s June 2020 primary election, the IEC
ordered that any voter “unable to physically touch or
be in safe proximity to another person” could vote by
mail under subsection (4) as a voter with disabilities.
Dkt. 6 at 10 (citing IEC Order 2020-37 § 9A). For the
upcoming general election in November, the Election
Commission has not renewed that order. See Dkt. 66.
An elderly voter is “a voter who is at least sixty-five years of
age.” Ind. Code § 3-5-2-16.5.
1

28a
Plaintiffs are nine Indiana voters who do not expect to qualify to vote by mail in the general election
under Indiana Code § 3-11-10-24. Dkt. 14 at 2 (citing
declarations). They have filed a motion for preliminary injunction. Dkt. 13. Specifically, they ask the
Court to enter an order requiring Indiana to implement “no-excuse absentee voting” that would allow
any voter to vote by mail with an absentee ballot in
the November 3, 2020 general election. Dkt. 62 at 5-6.
II. Applicable Law
Parties may move under Federal Rule of Civil Procedure 65 for the issuance of a preliminary injunction.
Determining whether a preliminary injunction is required involves a two-step inquiry, with a threshold
phase and a balancing phase. Whitaker v. Kenosha
Unified Sch. Dist. No. 1 Bd. of Educ., 858 F.3d 1034,
1044 (7th Cir. 2017). At the threshold phase, the moving party must show that: (1) without the requested
relief, it will suffer irreparable harm during the pendency of its action; (2) traditional legal remedies
would be inadequate; and (3) it has “a reasonable likelihood of success on the merits.” Id. If the movant satisfies these requirements, the court proceeds to the
balancing phase “to determine whether the balance of
harms favors the moving party or whether the harm
to other parties or the public sufficiently outweighs
the movant’s interests.” Id.
III. Discussion
“A preliminary injunction is an extraordinary
remedy.... never to be indulged in except in a case
clearly demanding it.” Id. (quoting Girl Scouts of Manitou Council, Inc. v. Girl Scouts of United States of
Am., Inc., 549 F.3d 1079, 1085 (7th Cir. 2008)). To be
entitled to a preliminary injunction, Plaintiffs must

29a
first meet their threshold burden to show a reasonable
likelihood of success on the merits, irreparable harm,
and that traditional legal remedies would be inadequate. Id.
A. Likelihood of success on the merits
Plaintiffs argue that they are likely to succeed on
the merits of their Fourteenth Amendment and
Twenty-Sixth Amendment challenges because Indiana has not consistently allowed voting by mail.2 Dkt.
14 at 7–20. Defendants respond that Indiana has
made reasonable distinctions in its vote-by-mail accommodations. Dkt. 53 at 9–19.
1. The right to vote does not include
the right to vote by mail
The right to vote is a fundamental right central to
our democracy. Harper v. Va. State Bd. of Educ., 383
U.S. 663, 667 (1966). Less clear is whether that right
is at stake here, so that’s where the Court’s analysis
begins. Plaintiffs correctly “acknowledge that [Indiana] could likely eliminate all absentee voting if it
wished.” Dkt. 14 at 9. That’s because unless a restriction on absentee voting “absolutely prohibit[s]”
someone from voting, the right to vote is not at stake.
McDonald v. Bd. of Election Comm’rs of Chi., 394 U.S.
802, 807 (1969).
In McDonald, pretrial detainees in Illinois sought
the ability to vote absentee. Id. at 803. Illinois allowed
absentee voting for four classes of people, but the detainee plaintiffs did not fall into any of them. Id. at
803–04. The Supreme Court rejected the detainees’
Plaintiffs also allege a violation of Article 1 § 23 of the Indiana
Constitution, Dkt. 6 at 20, but they do not seek a preliminary
injunction on that basis, see Dkt. 13; Dkt. 14.
2

30a
argument that Illinois’ absentee voting privileges violated the Fourteenth Amendment’s Equal Protection
Clause. Id. at 806. The Court explained that “because
of the overriding importance of voting rights, classifications ‘which might invade or restrain them must be
closely scrutinized and carefully confined.’ ” Id. at 807,
89 (quoting Harper, 383 U.S. at 670). But Illinois’ absentee voting provisions did not require that “exacting
approach” because the detainees had not shown that
they were absolutely prohibited from voting on election day. Id. at 808, 808 n.6. So it was “not the right
to vote that [was] at stake ... but a claimed right to
receive absentee ballots.” Id. at 807.
Plaintiffs argue that the Supreme Court has “limited McDonald’s holding to its facts.” Dkt. 14 at 12–
13. In Goosby v. Osser, however, the Court confronted
a different factual situation because the plaintiffs had
alleged that “the Pennsylvania statutory scheme absolutely prohibit[ed] them from voting.” 409 U.S. 512,
521 (1973). The Court’s limited holding at the preliminary stage of that case was only that—because of that
allegation—the plaintiffs’ claim was not “wholly insubstantial” or “obviously frivolous” under McDonald.
Id. at 518, 521–22. Similarly, in Hill v. Stone, the
Court did not cabin McDonald, but summarized it as
addressing “whether pretrial detainees in Illinois jails
were unconstitutionally denied absentee ballots”
when “there was nothing in the record to indicate that
the challenged Illinois statute had any impact on the
appellants’ exercise of their right to vote.” 421 U.S.
289, 300 n.9 (1975). Those cases therefore did not
overrule McDonald or limit it to its facts.
Moreover, in Griffin v. Roupas, working mothers
sought expanded voting options “that would allow
people [to vote] who find it hard for whatever reason

31a
to get to the polling place on election day.” 385 F.3d
1128, 1129–30 (7th Cir. 2004). The Seventh Circuit
found no equal protection violation because, among
other reasons, “unavoidable inequalities in treatment,
even if intended in the sense of being known to follow
ineluctably from a deliberate policy, do not violate
equal protection.” Id. at 1132.
The same is true here. Plaintiffs do not contend
that they are absolutely prohibited from voting. Rather, they contend that the constitution requires the
state to allow all voters to vote by mail. Dkt. 14 at 11.
Since Plaintiffs really seek an expansion of absentee
voting privileges, Dkt. 6 at 21; Dkt. 13, it is “not the
right to vote that is at stake here but a claimed right
to receive absentee ballots.” McDonald, 394 U.S. at
807. When, as here, the fundamental right to vote is
not at stake, Indiana has “wide leeway ... to enact legislation that appears to affect similarly situated people differently.” Id.
2. Plaintiffs are not likely to succeed
on their equal protection claim
Plaintiffs contend that, under the Constitution,
all voters must be allowed to vote by mail in the general election because of COVID-19. Dkt. 6 at 21; Dkt.
13. They argue that their equal protection claim
should be evaluated under the Anderson–Burdick
framework, which balances the burdens on the right
to vote against the state’s interests that may justify
those burdens. Dkt. 14 at 7; see Burdick v. Takushi,
504 U.S. 428 (1992); Anderson v. Celebrezze, 460 U.S.
780 (1983). Defendants respond that the decision not
to expand voting by mail does not implicate the right
to vote, so the Anderson–Burdick framework does not
apply. Dkt. 53 at 16.

32a
It is not necessary for the Court to decide whether
the Anderson–Burdick framework applies here because Plaintiffs have not shown a reasonable likelihood of success on the merits under either Anderson–
Burdick or McDonald.3 While election laws “invariably impose some burden on individual voters,” those
burdens do not necessarily “compel close scrutiny.”
Burdick, 504 U.S. at 433. Instead, the rigor of the inquiry “depends upon the extent to which a challenged
regulation burdens First and Fourteenth Amendment
rights.” Id. at 434. Here, Plaintiffs have not alleged or
shown that the State—through either Defendants’ actions or Indiana’s laws—has absolutely prohibited
them from voting. See McDonald, 394 U.S. at 809 (because nothing showed that plaintiffs were “absolutely
prohibited” from voting, Illinois’ absentee voting decisions appeared “quite reasonable”). And as explained

The Supreme Court has applied Anderson–Burdick when “a
challenged regulation burdens First and Fourteenth Amendment rights,” Burdick, 504 U.S. at 434, and the Seventh Circuit
has explained that it applies “to all First and Fourteenth Amendment challenges to state election laws,” Acevedo v. Cook Cty. Officers Electoral Bd., 925 F.3d 944, 948 (7th Cir. 2019). Defendants argue that under McDonald, Anderson–Burdick does not
apply to this equal protection challenge, Dkt. 53 at 16–18, and as
explained, the Court need not resolve this question at this stage
of this case. Cf. Mays v. LaRose, 951 F.3d 775, 783 n.4 (6th Cir.
2020) (“It’s unclear whether the Supreme Court ever intended
Anderson–Burdick to apply to Equal Protection claims. That
Court has only applied the framework in the context of generally
applicable laws.”). Under Anderson–Burdick, any burden on the
right to vote would be analyzed under McDonald—which, as explained above, the Supreme Court has not limited to its facts or
overruled—and Griffin. See Tex. Democratic Party v. Abbott, 961
F.3d 389, 393–94 (5th Cir. 2020) (“[McDonald] squarely governs
the equal-protection issue.”).

3

33a
above, the privilege of voting by mail does not implicate the fundamental right to vote. See id. at 807.
Plaintiffs therefore have not shown a substantial burden on the fundamental right to vote, leaving them
with only their equal protection argument that Indiana does not evenhandedly grant a statutory entitlement to vote by mail. Dkt. 14 at 11–12.
But Plaintiffs have not shown a reasonable likelihood of success on that argument. To start, voting by
mail is not a right but a privilege that “make[s] voting
easier.” Luft v. Evers, 963 F.3d 665, 672 (7th Cir.
2020). Nonetheless, under an equal protection analysis, the statutory distinctions must at least “bear some
rational relationship to a legitimate state end.”
McDonald, 394 U.S. at 809. In this context, the legitimate state end is the “consistent and laudable state
policy of adding ... groups to the [vote by mail] coverage.” Id. at 811. And Indiana is not required to all at
once add every conceivable group who could benefit.
Id.
For these reasons, “unavoidable inequalities in
treatment, even if intended in the sense of being
known to follow ineluctably from a deliberate policy,
do not violate equal protection.” Griffin, 385 F.3d at
1132. That is the case here. Indiana drew distinctions
about who may vote by mail, knowing that some
would not be able to enjoy that privilege. See Ind. Code
§ 3-11-10-24. That legislative judgment is one that Indiana is generally entitled to make, see Griffin, 385
F.3d at 1131, and Plaintiffs have not shown a likelihood that it was merely an “arbitrary scheme,”
McDonald, 394 U.S. at 811. Moreover, “electoral provisions cannot be assessed in isolation,” looking only
at voting restrictions while ignoring voting privileges.
Luft, 963 F.3d at 675.

34a
Indiana provides several alternatives to voting inperson on November 3, 2020: (1) early in-person voting is available between October 6, 2020 and November 2, 2020; (2) voters who meet the requirements may
vote by mail with an absentee ballot; and (3) eligible
voters may have poll workers bring them a ballot so
they may vote at home. See How to Vote Early in Indiana, https://www.in.gov/idr/voteearly.htm (last visited Aug. 20, 2020). These provisions of Indiana’s voting laws make it easy to vote. The vote by mail absentee ballot provision, Indiana Code § 3-11-10-24(a),
grants vote by mail privileges to any voter who falls
into any one of thirteen categories, many of which are
sweepingly broad. This “cut[s] in [Indiana’s] favor.”
Luft, 963 F.3d at 675. A few less-convenient effects
“does not an unconstitutional system make.” Id.; see
McDonald, 394 U.S. at 810.
The cases that Plaintiffs cite do not counsel otherwise. Dunn v. Blumstein was about whether citizens
were entirely foreclosed from exercising their fundamental right to vote. 405 U.S. 330, 336 (1972). The
same is true of Harper, because it involved a poll tax
which denied voters the right to vote altogether if they
did not pay the tax. 383 U.S. at 666–68. Nor are any
of the cited district court opinions on point, so Plaintiffs have not established a likelihood of success on the
merits in light of McDonald and Griffin. See, e.g.
League of Women Voters of Va. v. Va. State Bd. of Elections, --- F.Supp.3d ----, No. 6:20-cv-24 (W.D. Va. May
5, 2020) (addressing—in the consent decree context—
an as-applied constitutional challenge to a witnesssignature requirement for absentee ballots); Doe v.
Walker, 746 F. Supp. 2d 667 (D. Md. 2010) (addressing

35a
a deadline for the receipt of absentee ballots from uniformed services and overseas voters).4
Plaintiffs also attempt to distinguish McDonald
and Griffin by arguing that nothing in those opinions
suggests “that the Constitution would have no application to claims seeking to expand absentee voting in
the face of a historic pandemic.” Dkt. 62 at 15–16.
While COVID-19 undisputedly presents new and serious challenges, Plaintiffs have not explained why
those challenges trigger constitutional protections
when the challenges of working mothers, medical personnel, and those working two jobs do not. See Griffin,
385 F.3d at 1130. In short, there have long been classes of people “for whom voting may be extremely difficult, if not practically impossible.” McDonald, 394
U.S. at 809–10. Yet Plaintiffs do not identify any case
in which that has been enough to show “unconstitutional incompleteness” of absentee voting privileges.
Id. at 810.
Plaintiffs are therefore unlikely to be able to show
that COVID-19’s challenges entitle them to constitutional relief. When it comes to this virus, “[l]ocal officials are working tirelessly to ‘shap[e] their response
to changing facts on the ground,’ knowing that the appropriate response is ‘subject to reasonable disagreement.’ ” Tex. Democratic Party, 961 F.3d at 393–94
(quoting S. Bay United Pentecostal Church v. Newsom, 140 S. Ct. 1613, 1614 (2020) (Roberts, C.J., concurring in the denial of injunctive relief)). For the federal courts to step in and decide what measures are
necessary would “allow[ ] a political question—
Plaintiffs also cite One Wisconsin Institute, Inc. v. Thomsen, 198
F. Supp. 3d. 896 (W.D. Wisc. 2016), which has since been reversed in part and vacated in part on appeal, Luft, 963 F.3d 665.

4

36a
whether a rule is beneficial, on balance—to be treated
as a constitutional question and resolved by the courts
rather than by legislators.” Luft, 963 F.3d at 671.
“Burdick forecloses that sort of substitution of judicial
judgment for legislative judgment.” Id.
Indeed, Indiana enjoys double deference in this
case. First, the Constitution “confers on the states
broad authority to regulate the conduct of elections,
including federal ones.” Griffin, 385 F.3d at 1130 (citing U.S. Const. Art. I § 4); accord Burdick, 504 U.S. at
433; Crawford v. Marion Cty. Election Bd., 553 U.S.
181, 208, 128 (2008) (Scalia, J., concurring). So courts
do “not interfere unless strongly convinced that the
legislative judgment is grossly awry.” Griffin, 385
F.3d at 1131. Second, in a pandemic “[o]ur Constitution principally entrusts ‘[t]he safety and the health of
the people’ to the politically accountable officials of the
States ‘to guard and protect.’” Pentecostal Church, 140
S. Ct. at 1613 (Roberts, C.J., concurring in the denial
of injunctive relief) (quoting Jacobson v. Massachusetts, 197 U.S. 11, 38 (1905)). Indiana receives this deference because of its responsibility to protect Plaintiffs and other voters on election day. And indeed, for
the general election Indiana is “procuring and distributing over 1 million face masks, over 1.5 million
gloves, 20,000 half-gallon bottles of hand sanitizer,
5,000 gallons of surface and equipment disinfectant,
and other PPE supplies for voters and poll workers.”
Dkt. 53-4 at 3 ¶ 8. Indiana also plans to distribute a
manual on best safety practices, as well as posters and
“social distancing markers.” Id. at 4 ¶ 9.
While balancing the harms and public interest is
not required because Plaintiffs have not shown a reasonable likelihood of success, it is worth noting several

37a
factors that weigh in Defendants’ favor. It is in the interest of Defendants and the public that the manner
of voting in the general election promote the accurate
and timely counting and reporting of results. See Griffin, 385 F.3d at 1131 (explaining some “problems created by absentee voting” and acknowledging that balancing those problems against the benefits “is quintessentially a legislative judgment”). Expanding voting by mail again for the general election may
jeopardize that interest. Dkt. 53 at 21–22.
Plaintiffs argue that Indiana should expand voting by mail for the general election as it did for the
primary because it will enable more people to vote.5
But general elections already have substantially
higher numbers of voters than primaries do. Combining that increase with increased votes from vote by
mail privileges—even if that privilege is not expanded, and certainly if it is—could easily strain Indiana’s voting systems because those systems are instead equipped for in-person voting. Id.; Dkt. 53-1 at
2; Dkt. 53-2 at 2; Dkt. 53-4 at 4. There is therefore
greater risk of delayed results and the disqualification
of voters for late or defective ballots for the general
election than for the primary. See Dkt. 53-2 at 2; Dkt.
53-3 at 4; Dkt. 53-4 at 4–5. It is within Indiana’s discretion to consider and weigh the benefits of expanded
voting by mail with the harm that could result from
the potential disqualification of a high number of absentee ballots and the inability of county election
boards to certify election results in a timely manner.

Plaintiffs do not present an argument that Indiana’s vote by
mail expansion for the primary election itself constitutionally requires the same for the general election. See Dkt. 14 at 15; Dkt.
62 at 10.
5

38a
In sum, Plaintiffs seek “unlimited absentee voting,” for the November 3, 2020 general election, but
have not shown a reasonable likelihood of overcoming
“a host of serious objections to judicially legislating so
radical a reform in the name of the Constitution.”
Griffin, 385 F.3d at 1130.
3. Plaintiffs are not likely to succeed
on their Twenty-Sixth Amendment
claim
Plaintiffs argue that, because voters who are at
least sixty-five years old are entitled to vote by mail
for that reason, Indiana’s voting by mail statute
abridges younger voters’ right to vote on account of
age in violation of the Twenty-Sixth Amendment.
That amendment provides: “The right of citizens of
the United States, who are eighteen years of age or
older, to vote shall not be denied or abridged by the
United States or by any State on account of age.” Dkt.
14 at 16 (quoting U.S. Const. amend. XXVI § 1). Defendants respond that Indiana’s provisions do not
abridge the right to vote, which does not include a
right to vote absentee. Dkt. 52 at 18–19.
Plaintiffs have not shown a likelihood of success
on this claim for the same reasons they have not
shown a likelihood of success on their equal protection
claim. The text of the Twenty-Sixth Amendment
shows that it protects “the right ... to vote.” And as
explained above, under McDonald, a restriction on absentee voting does not endanger the right to vote unless it “absolutely prohibit[s]” someone from voting.
McDonald, 394 U.S. at 807.
Plaintiffs argue that McDonald “cannot possibly
control the Twenty-Sixth Amendment analysis because the Twenty-Sixth Amendment had not been

39a
adopted when McDonald was decided.” Dkt. 62 at 18.
But the Twenty-Sixth Amendment and McDonald are
contemporaries, and both address the constitutional
right to vote. See Tex. Democratic Party, 961 F.3d at
409. So, as the Fifth Circuit recognized, “McDonald’s
logic applies neatly to the Twenty-Sixth Amendment’s
text.” Id. There is also “plenty” of historical evidence
“that the Amendment’s most immediate purpose was
to lower the voting age from twenty-one to eighteen.”
Id. at 408 (citing Eric S. Fish, Note, The Twenty-Sixth
Amendment Enforcement Power, 121 Yale L.J. 1168,
1170 (2012)).
Moreover, because there are very few cases involving the Twenty-Sixth Amendment, Plaintiffs are unable to show that it “clearly demand[s]” the “far-reaching power” of a preliminary injunction. Orr v.
Schicker, 953 F.3d 490, 501 (7th Cir. 2020). At the
least—focusing on the preliminary stage of this case—
Plaintiffs have not shown a reasonable likelihood of
success on the merits of this claim, so they are not entitled to a preliminary injunction.6
***
For these reasons, Plaintiffs have not met their
threshold burden to show a reasonable likelihood of
success on the merits for either their equal protection
or Twenty-Sixth Amendment claim. See Whitaker, 858

Because Plaintiffs have not met their threshold preliminary injunction burden to show a reasonable likelihood of success on the
merits, so addressing the remaining threshold factors is unnecessary. See Korte v. Sebelius, 735 F.3d 654, 665 (7th Cir. 2013)
(“Here, the analysis begins and ends with the likelihood of success on the merits.”).
6

40a
F.3d at 1044. They therefore are not entitled to a preliminary injunction and the Court does not proceed to
balance each parties’ interests. See id.
IV. Conclusion
As the Supreme Court has noted, allowing
broader voting by mail may be wise policy. See
McDonald, 394 U.S. at 811 (noting Illinois’ “consistent
and laudable state policy of adding, over a 50-year period, groups to the absentee coverage”). Some states
have chosen “no-excuse” voting by mail for all. See
Dkt. 62 at 14. Indiana has decided otherwise. The
question here, however, is not whether the policy is
wise, but whether it is constitutional. For the reasons
explained above, Plaintiffs have not shown a reasonable likelihood of success in showing that the policy is
unconstitutional.
Plaintiffs’ motion for a preliminary injunction is
therefore DENIED. Dkt. [13]. Amicus Disability
Rights Education and Defense Fund’s motion for leave
to file amici curiae brief is GRANTED. Dkt. [64].7 The
motion to certify class remains pending. Dkt. 17. The
parties shall file a status update by August 28, 2020.
SO ORDERED.
Date: 8/21/2020
/s/ James Patrick Hanlon
JAMES PATRICK HANLON
United States District Judge
Southern District of Indiana

The Court is grateful for the amicus brief and its valuable insights into COVID-19’s impact on Hoosier voters with disabilities. Dkt. 64-1.

7

41a
APPENDIX D
ORDER NO. 2020-37
INDIANA ELECTION COMMISSION
CONCERNING EMERGENCY PROVISIONS
AFFECTING THE 2020 INDIANA PRIMARY
ELECTION
WHEREAS, per Executive Order 20-02, the Governor of the State of Indiana has declared a public
health disaster emergency effective March 6, 2020, in
response to the COVID-19 pandemic;
WHEREAS, on March 11, 2020, the World Health
Organization declared COVID-19 to be a global pandemic, and, several days later, on March 13, 2020, the
President of the United States declared a national
emergency under Proclamation 9994 in response to
the COVID-19 pandemic;
WHEREAS, Indiana Code 3-6-4.1-14 provides
that the Indiana Election Commission (“the Commission”) shall, in addition to other duties prescribed by
law, administer Indiana election laws, and advise and
exercise supervision over local election and registration officers;
WHEREAS, Indiana Code 3-6-4.1-17 permits the
Commission to issue an order extending the time to
perform an election related duty or file a document as
the result of an emergency;
WHEREAS, Indiana Code 3-6-4.1-25 permits the
Commission to issue advisory opinions to administer
Indiana election law;
WHEREAS, Indiana Code 3-11-4-1(c) permits the
Commission, in an emergency, to allow a person who

42a
is otherwise qualified to vote in person the ability to
vote by absentee ballot;
WHEREAS, Indiana Code 3-11-4-1(d) permits the
commission to determine whether absentee ballots
subject to 3-11-4-1(c) may be transmitted to and from
the voter by mail or personally delivered; and
WHEREAS, Indiana Code 3-11-10-1(a)(6) currently allows only the voter, the voter’s attorney in
fact, a member of a voter’s household, the U.S. Mail,
or a bonded courier to return the absentee ballot to the
county election board.
NOW, THEREFORE, BE IT ORDERED BY
THE INDIANA ELECTION COMMISSION:
SECTION 1
The Indiana primary election of May 5, 2020, is
postponed to Tuesday, June 2, 2020. This order applies to all Indiana counties and election boards.
SECTION 2
A.
Pursuant to IC 3-6-4.1-17(b) this order
applies to the entire State of Indiana and to all county
election boards, boards of registration, boards elections and registration, circuit court clerks, and all
other persons (as defined in IC 3-5-2-36) who are required to perform a duty or permitted to file a document under Indiana Code 3.
B.
This order applies to any statute set
forth in IC 3, IC 6-1.1-20, and IC 20-46-1 which specifies a date by which a duty must be performed or documents filed on or before May 5, 2020.
C.
This order applies to any statute set
forth in, IC 3, IC 6-1.1-20, and IC 20-46-1 which spec-

43a
ifies a date by which a duty must be performed or documents filed after May 5, 2020, to the extent that the
deadline is calculated to occur on a number of days
after the election that was to occur on May 5, 2020.
SECTION 3
A.
All dates corresponding to and calculated from the date of the May 5, 2020, primary election, including deadlines for performing a duty or filing a document are extended by twenty-eight (28)
days.
B.
The Commission advises any person affected by this SECTION of the following deadlines for
performing a duty or filing a document provided in Appendix 1 of this Order.
SECTION 4
A.
Any ballot, notice, form, or filing made
before the date of this order is valid for purposes of the
June 2, 2020 primary election, notwithstanding any
May 5, 2020 reference.
B.
Any ballot, notice, or form prescribed for
use on the May 5, 2020 primary is valid for use during
the primary election on June 2, 2020.
SECTION 5
A.
All registered and qualified Indiana voters are afforded the opportunity to vote no-excuse absentee by mail. Specifically, the qualifications set
forth in IC 3-11-10-24(a) are expanded to include all
otherwise registered and qualified Indiana voters.
B.
The Indiana Election Division is ordered
to prescribe an application to request an absentee ballot by mail under IC 3-5-4-8 in compliance with this

44a
SECTION. The order prescribing the application shall
expire on June 3, 2020.
C.
The Commission advises each county
election board that it may assign its responsibility to
mail an absentee ballot to a voter under IC 3-11-4-18
to one (1) or more of the following persons the circuit
court clerk, or an employee of the county election
boards appointed under IC 3-6-5, IC 3-6-5.2;IC 3-65.4; or IC 3-6-5.6.
SECTION 6
A.
An absentee by mail application that
was submitted on or after December 2, 2019, and not
later than the date of this order on which the voter did
not indicate a qualification under IC 3-11-10-24(a)
shall be accepted by a county election board if otherwise in accordance with the requirements of Indiana
law. If the application was rejected prior to this date
due to the lack of stated qualification to vote by mail,
it shall be accepted if otherwise in compliance with Indiana law.
B.
If possible, the Indiana Election Division
shall, create a system preferably through the
statewide voter registration system and Indianavoters.com, the state’s online voter portal, for a voter to
submit an absentee ballot application online to a
county election board. An electronic copy of the voter’s
signature from the voter’s registration record will be
affixed to only those applications submitted through
the online portal. The Indiana Election Division shall
work with the Secretary of State under IC 3-7-26.3-3
to incorporate this feature into the statewide voter
registration system.

45a
SECTION 7
A.
The Commission advises each county
election board, consistent with Executive Order 20-04
and 20-09, that county election boards may suspend
the requirement of explicitly adopting a policy for electronic participation and suspend the requirement to
have any members be physically present for meetings
deemed to be essential. All meetings of the county
election board where the Open Door Law (IC 5-14-1.5)
applies may be conducted by videoconference or by telephone conferencing so long as a quorum of members
is met, and any meeting is made available to members
of the public and media.
B.
The Commission advises each county
election board that under IC 3-11-4-17.5, a county
election board may review and determine if an absentee ballot application is to be approved or rejected in
the place of an absentee voting board appointed under
IC 3-11.5-4-23 and 3-11.5-4-23.5.
C.
The Commission advises each county
election board and circuit court clerk that under IC 311-4-17 the circuit court clerk, or an employee of the
county election board that is assigned an election duty
of the circuit court clerk under IC 3-6-5-14.5, but only
one (1) person is required to enter information contained on an applicant’s absentee ballot application
into the statewide voter registration system (“SVRS”).
D.
The Commission advises each county
election board that under IC 3-11-4-19 and 3-11-1027, each appointed member of the county election
board or their designated representative may initial
absentee ballots that are issued to a voter and that
each appointed member of the county election board

46a
is not required to be present when the other appointed
member initials a ballot.
SECTION 8
A.
Each county election board is directed to
notify the county chairmen of the two major political
parties of the county to nominate additional members
of absentee voter boards under IC 3-11.5-4-23 and 311.5-4-23.5 and encourage the nomination of employees of residential and in-patient healthcare facilities
to jointly perform the duties of absentee travel board
members to assist those confined in medical facilities,
including hospitals and nursing homes, and other locations in casting their ballot.
B.
The Commission advises each county
election board and circuit court clerk to work with
staff and administrators of residential and in-patient
healthcare facilities to develop a plan for the delivery
of absentee ballots and other envelopes and forms required by IC 3-11-10 that are to be taken into said facilities and for the return of any completed absentee
ballot to the county election board. This plan should
include designating an absentee voter board, circuit
court clerk, or employee of the county election board
with delivering absentee ballot materials to a designated place at each facility and taking possession of
absentee ballots completed by a voter in the facility.
C.
Each absentee voter board appointed under this SECTION that assists a voter in completing
their ballot shall complete Affidavits of Voter Assistance (PRE-3) (State Form 28192; R10/5-19).
SECTION 9
A.
For the purposes of this SECTION,
“voter with disabilities” includes a voter who is unable

47a
to complete their ballot because they are temporarily
unable to physically touch or be in safe proximity to
another person.
B.
Each county election board is directed to
notify the county chairmen of the two major political
parties of the county to nominate additional members
of absentee voter boards under IC 3-11.5-4-23 and 311.5-4-23.5 and encourage the nomination of two (2)
members of a household to perform the duties of absentee travel board members to assist a voter confined
in the same private residence as the absentee travel
board members.
C.
Each absentee travel board is not required to be in the same room as a voter with disabilities to assist them in completing their ballot. A travel
board may communicate with the voter from a different room, by telephone, visually, or by some other telephonic or video device to help the voter complete
their ballot and allow the voter to verify the votes on
their ballot were accurately captured.
D.
Each absentee voter board appointed under this SECTION that assists a voter in completing
their ballot shall complete an Affidavit of Voter Assistance (PRE-3) (State Form 28192; R10/5-19).
SECTION 10
A.
For purposes of this SECTION, “family
member” is defined as an individual listed in IC 3-66-7(4): as the spouse, parent, father-in-law, motherin-law, child, son-in-law, daughter-in-law, grandparent, grandchild, brother, sister, brother-in-law, sisterin-law, uncle, aunt, nephew, or niece of the voter.

48a
B.
For purposes of this SECTION, “care
giver” is defined as a person who provides care or assistance to a voter in the person’s place of residence.
C.
Notwithstanding IC 3-11-10-1(a)(6), a
family member or care giver may personally deliver a
voted ballot in the required security envelope to a
county election board, and upon executing an affidavit
setting forth their status as a family member of the
voter on a form prescribed under IC 3-5-4-8.
SECTION 11
A.
The Commission advises to each circuit
court clerk that they may designate one location in
their county to be a location of the office of the circuit
court clerk for the purpose of absentee voting under
IC 3-11-10-26.
B.
A county election board may establish
satellite locations for conducting absentee voting according to IC 3-11-10-26.3 and may establish as many
locations as necessary to conduct absentee voting and
observe any CDC or state department of health guidelines regarding the COVID-19 virus. Any satellite locations established for the primary election that is
postponed under SECTION 1 of this Order are not required to be used during the general election held after the primary election.
SECTION 12
A.
The Commission advises each county
election board that they have the ability to reduce and
consolidate the number of polling locations and poll
workers needed to conduct an election on election day.
This includes:
i.

A resolution under IC 3-6-6-38 to not use
the position of Sheriff or Poll clerk.

49a
ii. A resolution under IC 3-6-6-38.5 to have
one person serve as inspector for each
precinct whose polling location is located
in the same shared location.
iii. An order under IC 3-11-8-3.2 to move a
precinct polling location established by
the county executive that the county
election board determines would be dangerous or impossible to use on election
day.
iv. An order under IC 3-11-8-4.3 to locate
the polls of a precinct to the same location as the polls of another adjoining precinct.
B.
The Commission advises each county
election board that a challenger station referred to IC
3-11-8-19 may be used to assist in following any public
health guidelines to prevent the spread of the COVID19 virus by keeping as many people as is practical and
efficient from congregating in the area where a voter
signs the poll list or casts a ballot.
SECTION 13
A.
Notwithstanding IC 3-11-18.1-6, a vote
center plan of a county where the total number of active voters in the county equals at least twenty-five
thousand (25,000), may be amended, by unanimous
vote of the entire membership of the board, to provide
for the following only for the election postponed by
SECTION 1 of this Order:
(1)
At least one (1) vote center for each
twenty five thousand (25,000) active voters.
(2)
In addition to the vote centers designated in subdivision (1), the plan must provide

50a
for a vote center for any fraction of twenty five
thousand (25,000) active voters.
B.
This SECTION may not be construed to
require a county election board to establish more vote
center locations in the county vote center plan that is
required by IC 3-11-18.1-6.
C.
The Commission advises each county
election board that a county vote center plan under IC
3-11-18.1-4 only requires a minimum of one (1) precinct election board for each vote center established in
the plan.
SECTION 14
A.
Notwithstanding IC 3-6-6-39, an individual who is not a voter and eligible to serve as a precinct election officer under IC 3-6-6-39 does not need
to provide written approval of the principal of the
school the individual is attending at the time of being
appointed as a precinct election officer, if the school
the individual attends is not in session, or, if the student is educated in the home, the approval of the individual responsible for the education of the student.
B.
Notwithstanding IC 3-11.5-4-23, an individual who is eligible to be appointed as an absentee
ballot counter or courier under IC 3-11.5-4-23(d) does
not need to provide written approval of the principal
of the school the individual attends at the time of being appointed as a precinct election office or, if the student is educated in the home, the approval of the individual responsible for the education of the student,
if the school the individual attends is not in session.
An individual who is eligible to be appointed as an absentee ballot counter or courier under IC 3-11.5-4-23

51a
is also eligible to be appointed as a member of an absentee voter board except for an absentee traveling
board under IC 3-11-10-25.
SECTION 15
A.
The Commission advises each county
election board that it may adopt a resolution under IC
3-11.5-4-11 to provide for the processing and counting
of absentee ballots at 6:00 a.m. on election day.
B.
Each county election board in a county
where IC 3-11.5-4-11(c) or (d) does not apply may
adopt a resolution, by the unanimous vote of the entire membership of the board, to allow for the processing and counting of absentee ballot according to
IC 3-11.5 to begin at 6:00 a.m. on election day.
The Commission advises each county election
board that it may adopt a resolution under IC 3-11.54-12 to waive the requirements to make the findings
under IC 3-11.5-4-12(b)(2) and (b)(3) for an absentee
ballot cast under IC 3-11-10-25, 3-11-10-26, and 3-1110-26.3.
C.
Notwithstanding IC 3-11.5-4-12.5(a), the
provisions of IC 3-11.5-4-12.5 apply to each county.
D.
Notwithstanding IC 3-11.5-6-4, the requirement that each of the absentee ballots for each
precinct be counted without interruption does not apply to the primary election postponed under SECTION 1 of this Order. The county election board shall
direct the pace in which absentee ballots in each precinct shall be counted provided that the counting of
absentee ballots must be completed not later than
noon, June 12, 2020.

52a
SECTION 16
A.
The Commission advises each county
election board that there is no deadline to complete
the canvass of the vote under IC 3-12-4-6 except that
the final, certified results of the election must be determined not later than 3:00 p.m. local prevailing time
June 12, 2020.
B.
The Commission advises each county
election board, consistent with Executive Order 20-04
and 20-09, to make efforts to allow the public to participate in the public meeting when the canvass is
held electronically. The county election board may
take into consideration matters of public health and
safety when determining which parts of the room
where election materials are handled or transported
may be restricted.
SECTION 17
A.
The Commission shall hold a public
hearing on April 22, 2020 at 10:00 a.m. Eastern Time,
to consider the methods and procedures necessary to
implement a vote by mail election for the primary election that has been postponed by SECTION 1 of this
Order should the public health disaster emergency necessitate such a change in election procedures.
B.
At this meeting, the Commission shall
also address the timely certification of elected state
convention delegates and the presidential primary
preference vote to each of the major political parties
so that both parties may hold their state conventions.
The Commission shall also consider any other statutes that would need to be addressed to allow the major political parties to hold their state convention with
the postponed primary.

53a
SECTION 18
This Order is effective immediately.

ADOPTED THIS 25TH DAY OF MARCH, 2020 BY
THE INDIANA ELECTION COMMISSION:
/s/ Paul Okeson

/s/ S. Anthony Long

Paul Okeson, Chair

S. Anthony Long, Vice
Chair

/s/ Suzannah Wilson Overholt /s/ Zachary E. Klutz

Suzannah Wilson
Overholt, Member

Zachary E. Klutz,
Member

54a
APPENDIX E
Indiana Code
3-11-10-24
Effective: July 1, 2019
3-11-10-24 Voter entitled to vote by mail; voter
with disabilities; deposit or delivery of sealed
envelope; recasting ballot
Sec. 24. (a) Except as provided in subsection (b), a
voter who satisfies any of the following is entitled to
vote by mail:
(1) The voter has a specific, reasonable expectation of being absent from the county on election
day during the entire twelve (12) hours that the
polls are open.
(2) The voter will be absent from the precinct of
the voter’s residence on election day because of
service as:
(A) a precinct election officer under IC 3-6-6;
(B) a watcher under IC 3-6-8, IC 3-6-9, or IC 36-10;
(C) a challenger or pollbook holder under IC 36-7; or
(D) a person employed by an election board to
administer the election for which the absentee
ballot is requested.
(3) The voter will be confined on election day to
the voter’s residence, to a health care facility, or
to a hospital because of an illness or injury during

55a
the entire twelve (12) hours that the polls are
open.
(4) The voter is a voter with disabilities.
(5) The voter is an elderly voter.
(6) The voter is prevented from voting due to the
voter’s care of an individual confined to a private
residence because of illness or injury during the
entire twelve (12) hours that the polls are open.
(7) The voter is scheduled to work at the person’s
regular place of employment during the entire
twelve (12) hours that the polls are open.
(8) The voter is eligible to vote under IC 3-10-11
or IC 3-10-12.
(9) The voter is prevented from voting due to observance of a religious discipline or religious holiday during the entire twelve (12) hours that the
polls are open.
(10) The voter is an address confidentiality program participant (as defined in IC 5-26.5-1-6).
(11) The voter is a member of the military or public safety officer.
(12) The voter is a serious sex offender (as defined
in IC 35-42-4-14(a)).
(13) The voter is prevented from voting due to the
unavailability of transportation to the polls.
(b) A voter with disabilities who:
(1) is unable to make a voting mark on the ballot
or sign the absentee ballot secrecy envelope; and
(2) requests that the absentee ballot be delivered
to an address within Indiana;

56a
must vote before an absentee voter board under section 25(b) of this chapter.
(c) If a voter receives an absentee ballot by mail, the
voter shall personally mark the ballot in secret and
seal the marked ballot inside the envelope provided by
the county election board for that purpose. The voter
shall:
(1) deposit the sealed envelope in the United
States mail for delivery to the county election
board; or
(2) authorize a member of the voter’s household or
the individual designated as the voter’s attorney
in fact to:
(A) deposit the sealed envelope in the United
States mail; or
(B) deliver the sealed envelope in person to the
county election board.
(d) If a member of the voter’s household or the voter’s
attorney in fact delivers the sealed envelope containing a voter’s absentee ballot to the county election
board, the individual delivering the ballot shall complete an affidavit in a form prescribed by the election
division. The affidavit must contain the following information:
(1) The name and residence address of the voter
whose absentee ballot is being delivered.
(2) A statement of the full name, residence and
mailing address, and daytime and evening telephone numbers (if any) of the individual delivering the absentee ballot.
(3) A statement indicating whether the individual
delivering the absentee ballot is a member of the

57a
voter’s household or is the attorney in fact for the
voter. If the individual is the attorney in fact for
the voter, the individual must attach a copy of the
power of attorney for the voter, unless a copy of
this document has already been filed with the
county election board.
(4) The date and location at which the absentee
ballot was delivered by the voter to the individual
delivering the ballot to the county election board.
(5) A statement that the individual delivering the
absentee ballot has complied with Indiana laws
governing absentee ballots.
(6) A statement that the individual delivering the
absentee ballot is executing the affidavit under
the penalties of perjury.
(7) A statement setting forth the penalties for perjury.
(e) The county election board shall record the date
and time that the affidavit under subsection (d) was
filed with the board.
(f) After a voter has mailed or delivered an absentee
ballot to the office of the circuit court clerk, the voter
may not recast a ballot, except as provided in IC 311.5-4-2.
***

